DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General

     Audit of Airport Passenger and 

 Checked Baggage Screening Performance 


            (Unclassified Summary) 





OIG-08-25                      February 2008
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                    February 14, 2008


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Transportation Security
Administration’s procedures, equipment, and supervision to ensure that Transportation
Security Officers are able to prevent threat items from being introduced into the sterile
areas and checked baggage systems of the nation’s airports. It is based on interviews
with Transportation Security Officers and Transportation Security Administration
officials, direct observations, field testing, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation
of this report.




                                      Richard L. Skinner 

                                      Inspector General 

OIG 

Department of Homeland Security
Office of Inspector General

Background
                   We conducted unannounced, covert testing at eight domestic
                   airports, from late May 2007 through August 2007. Because the
                   Transportation Security Administration (TSA) has deployed
                   explosives trace portals in a number of airports for operational use,
                   and is continuing to test Whole Body Imagers (WBI) in a pilot
                   program at one airport, we included locations that were using these
                   technologies when we made our airport selections.

                   Our purpose in testing was to determine whether: (1) the
                   Transportation Security Administration’s screening procedures and
                   standards are adequate; (2) Transportation Security Officers are
                   following those screening procedures and standards; and (3)
                   aviation security screening equipment and technologies are
                   functioning properly and as intended.

                   Our screening checkpoint tests included attempts to pass from the
                   public area of each selected airport to the sterile area through the
                   passenger screening checkpoint carrying weapons and simulated
                   improvised explosive devices (IEDs). For our checked baggage
                   tests, we introduced bags containing simulated IEDs into the
                   baggage system at each airport we visited.

                   Specifically, a “test” at a passenger screening checkpoint was
                   defined as one tester attempting to take one threat object through
                   the checkpoint into the sterile area undetected on his or her body or
                   in his or her carry-on bag. A “test” at a checked bag screening
                   location was defined as one or two testers introducing a bag with a
                   simulated IED inside it into the checked baggage system.

                   A “pass” occurred if the threat object was identified by screening
                   personnel and prevented from being carried into the sterile area
                   through the screening checkpoint or being put into the baggage
                   system downstream from the checked baggage screening location.
                   A “fail” occurred when the threat object was not detected at the
                   screening checkpoint, or the checked bag was cleared for flight.




           Audit of Airport Passenger and Checked Baggage Screening Performance 


                                          Page 1       

Results of Audit
                  The number of tests conducted, the names of the airports tested,
                  and the quantitative and qualitative results of our testing are
                  classified. We have shared that information with the Department,
                  the Transportation Security Administration, and appropriate
                  congressional committees.

                  As a result of our testing, we made six recommendations to TSA,
                  which concurred with all of them. When fully implemented, these
                  recommendations will improve an already strong passenger and
                  checked baggage screening process.

                  We gave a copy of our draft report to TSA for review and
                  comment. The unclassified portion of TSA’s response to our draft
                  report is summarized below.

TSA’s Response
                  The security of the nation’s aviation system is a collaboration of
                  public and private sector elements working together to provide
                  effective protection for travelers and the flow of goods. This
                  coordinated effort to protect the aviation system is designed to
                  defeat threats, reduce vulnerabilities, minimize the consequences
                  of, and expedite the recovery from attacks that might occur. TSA
                  screening of persons and property continues to be a vital and
                  successful element of the overall aviation security system. The
                  effectiveness of TSA screening is due to the layered approach to
                  aviation security, greater emphasis on unpredictable screening
                  methods, and systematic improvements implemented in the
                  screening process.

                  The President’s National Strategy for Homeland Security
                  recognizes that our Nation cannot envision or prepare for every
                  potential threat. The National Strategy accepts a certain level of
                  risk as a permanent condition. Managing the security risk requires
                  a prioritization of resources and the diversification of protective
                  responsibilities among all of our Nation’s homeland security
                  partners. The passenger screening system is structured with the
                  knowledge that there are vulnerabilities in the system; however,
                  the vulnerabilities vary in degree and TSA’s risk-based approach
                  effectively addresses those that could lead to catastrophic events.

                  TSA passenger and baggage screening, collectively, is one of 19
                  interlinked layers of security protecting aviation. Each and every

          Audit of Airport Passenger and Checked Baggage Screening Performance 


                                         Page 2   

        one of these 19 security layers is important and strong; linked
        together, they are effective and formidable. The reinforced,
        multiple security layers create a system of which the whole is
        greater than the sum of its parts. The 9/11 Commission recognized
        the importance of a layered security system given that no single
        security measure is foolproof.

        As part of its role in the layered security system, TSA is enhancing
        the effectiveness of screening by expanding the unpredictability of
        screening measures. TSA has instituted a proactive approach to
        screening by changing what we do, how we do it, where we do it,
        and how often. TSA constantly reviews and implements changes
        to specific screening techniques, TSO interactions with travelers,
        and the level of resources needed to detect hostile intent.

        TSA recognizes the value of covert testing and uses the results to
        make operational decisions. In April 2007, TSA established the
        Aviation Screening Assessment Program to create a more
        systematic framework to assess the effectiveness of the screening
        process and provide statistically sound data. This program
        performed thousands of covert tests at airports nationwide in 2007.
        Under separate training programs, TSA conducts over a thousand
        covert tests for IED’s and almost 70,000 electronic image tests—
        every day. Together with the results of covert testing performed by
        TSA’s Office of Inspection, TSA is able to analyze statistically
        sound data to better identify which aspects of the screening process
        need to be strengthened or revised.

        TSA already has a number of initiatives underway to address
        OIG’s findings and satisfy its recommendations. For example,
        TSA’s Office of Security Operations is considering additional
        levels of procedural unpredictability to complicate and disrupt
        terrorist plans. TSA’s Office of Security Technology recently
        purchased Advanced Technology x-ray systems which will provide
        high definition x-ray images and multiple viewing angles along
        with some automated detection capabilities. These systems will be
        deployed in 2008. TSA is continuing the testing of WBI
        technology and filters, which was the subject of testing by the
        OIG.

        The most significant change to TSA screening operations is
        expected to be implemented at multiple Category X airports in
        2008. TSA will be introducing an improved screening checkpoint
        that focuses on three initiatives: (1) improving hostile intent
        detection by reducing routine travel “noise” and focusing on
        telltale behavior; (2) deploying proven technology to screen for

Audit of Airport Passenger and Checked Baggage Screening Performance 


                               Page 3   

        explosives on passengers and carry-on bags; and (3) reducing
        congestion and engaging passengers at more points in the
        journey—directly or indirectly.

        Although OIG covert testing focused only on the single security
        layer of passenger and baggage screening, TSA values OIG’s
        covert testing results and finds its recommendations useful. OIG’s
        testing of passenger and baggage screening demonstrates that a
        concerted effort may target any one layer.




Audit of Airport Passenger and Checked Baggage Screening Performance 


                               Page 4   

Appendix A
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Assistant Secretary, Transportation Security Administration
                      Transportation Security Administration, Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             Audit of Airport Passenger and Checked Baggage Screening Performance 


                                            Page 5       

Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
